IG-1

INFORMATION: Report on the "Inspection of Power Purchase
Contracts at the Western Area Power Administration"

       TO:The Secretary

BACKGROUND:

The subject final report is provided for your information. The
Office of Inspector General received an allegation regarding
possible irregularities in certain power purchase contracts
awarded by the Western Area Power Administration. Based on our
survey of Western's power purchase procedures, we expanded our
allegation based inquiry to include several management issues.
Thus, the purpose of this inspection was to review the specific
allegation as well as to evaluate Western's power purchase
contracting procedures relating to competition, the documentation
of the solicitation, negotiation, and award processes, and the
determination of the reasonableness of the rates negotiated by
the Western Area Power Administration.

DISCUSSION:

The Western Area Power Administration has awarded individual
power purchase contracts that range in value from a few thousand
dollars to more than $1 billion, and Western's power purchase
costs averaged more than $250 million per year during Fiscal
Years 1991 and 1992. We found that Western awards long and short
term power purchase contracts without the use of full and open
competition, even though more than one source of supply exists
and individual contracts can be worth hundreds of millions of
dollars. In place of formal competitive procedures, Western uses
informal screening methods to identify potential suppliers of
power.

We found that the Western Area Power Administration has not
developed any written internal policies and procedures for the
solicitation, negotiation, award, or documentation of power
purchase contracts. We found that Western does not maintain
formal written documentation in the official contract files of
its market searches, contacts with potential suppliers, the
decisions leading to contract negotiations with a single source,
or the justification for contracting without the use of full and
open competition. In addition, we found no documentation to
describe the price negotiation process, the pricing information
considered during negotiations, or any certification or
determination of the reasonableness of negotiated rates.

We could not find any Federal contracting requirements, including
requirements for competition, which were recognized by the
Western Area Power Administration or the Department's Office of
Procurement and Assistance Management as being applicable to the
Western Area Power Administration's power purchase program.
Western believes that they are exempt from Federal competition
and contracting requirements for power purchase contracts. The
Office of Procurement and Assistance Management believes that
Western's power purchase program is not part of the procurement
system and, thus, is not covered by the Federal contracting
requirements. We believe the issue of the applicability of the
Federal Acquisition Regulation to purchase power contracts needs
further review. After reviewing a draft of this report the
Office of the Assistant General Counsel for Procurement and
Financial Assistance stated in a memorandum that this issue needs
further review.

In commenting on this report, the Office of Procurement and
Assistance Management and the Administrator, Western Area Power
Administration, concurred with eight of our nine recommendations.
Action on one recommendation was deferred pending the results of
the analysis to determine whether or not power purchases are part
of the procurement system and covered by the Federal Acquisition
Regulation and the Competition in Contracting Act.




      John C. Layton
      Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary
      General Counsel
      Deputy Assistant Secretary for Procurement and
        Assistance Management
      Administrator, Western Area Power Administration
                       U.S. DEPARTMENT OF ENERGY

                     OFFICE OF INSPECTOR GENERAL




                            REPORT ON THE

               INSPECTION OF POWER PURCHASE CONTRACTS

              AT THE WESTERN AREA POWER ADMINISTRATION


The Office of Inspections wants to make the distribution of its
inspection reports as customer friendly and cost effective as
possible. As a consequence, this report is available
electronically through the Internet at the following alternative
addresses:

               Department of Energy Headquarters Gopher
                          gopher.hr.doe.gov

        Department of Energy Headquarters Anonymous FTP
                     vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate
inspection report distribustion. Your comments would be
appreciated and can be provided on the Customer Comment Form
attached to the Inspection Report.




Report No. DOE/IG-0372                       Office of Inspections
Date Issued: May 9, 1995                     Washington, D.C. 20585




                                REPORT ON THE
                   INSPECTION OF POWER PURCHASE CONTRACTS
                  AT THE WESTERN AREA POWER ADMINISTRATION




                             TABLE OF CONTENTS                   PAGE


   I.     INTRODUCTION AND PURPOSE .............................      1

  II.     SCOPE AND METHODOLOGY ................................      1

 III.     SUMMARY RESULTS OF INSPECTION.........................      2

  IV.     BACKGROUND ...........................................      6

   V.     RESULTS OF INSPECTION ................................ 11

          A.    WAPA POLICIES, PROCEDURES AND PRACTICES .......... 11

                  CONCLUSION ..................................... 25

          B.    COMPETITIVE TRENDS IN THE POWER INDUSTRY ......... 26

                  CONCLUSION ..................................... 28
       C.   APPLICABILITY OF THE COMPETITION REQUIREMENTS OF
            CICA AND THE FAR ................................. 29

              CONCLUSION ..................................... 37

       D.   DOE HEADQUARTERS' MANAGEMENT OVERSIGHT OF THE POWER
            PURCHASE PROGRAMS OF THE POWER MARKETING
            ADMINISTRATIONS .................................. 38

              CONCLUSION ..................................... 41

 VI.   RECOMMENDATIONS ...................................... 42

VII.   MANAGEMENT COMMENTS .................................. 43
                      OFFICE OF INSPECTOR GENERAL
                         OFFICE OF INSPECTIONS
                        WASHINGTON, D.C. 20585


                             REPORT ON THE
                INSPECTION OF POWER PURCHASE CONTRACTS
               AT THE WESTERN AREA POWER ADMINISTRATION


                                  #=1
I.    INTRODUCTION AND PURPOSE

The Office of Inspector General received an allegation regarding
possible irregularities in certain power purchase contracts
awarded by the Western Area Power Administration (WAPA). Based on
our survey of WAPA's power purchase procedures, we expanded our
allegation based inquiry to include several management issues.
Thus, the purpose of this inspection was to review the specific
allegation as well as to evaluate WAPA's power purchase
contracting procedures relating to competition, the documentation
of the solicitation, negotiation, and award processes, and the
determination of the reasonableness of the rates negotiated by
WAPA.


II.    SCOPE AND METHODOLOGY

This inspection included a review of (i) selected long term and
seasonal power purchase contracts awarded by WAPA; (ii) selected
long term and seasonal contract files; (iii) the competition and
contracting requirements of the Federal Acquisition Regulation
(FAR), (iv) the competition requirements of the Competition in
Contracting Act (CICA); (v) the Code of Federal Regulations (CFR),
the United States Code (USC), and Presidential Executive Orders
regarding Power Marketing Administration (PMA) operations; (vi)
WAPA policies and procedures; and (vii) Department of Energy (DOE)
Delegation Orders, memoranda, and Secretary of Energy and DOE
Notices regarding the management oversight of Power Marketing
Administrations.

As part of our review, inspectors obtained information at WAPA
Headquarters, Denver, Colorado, and at the Sacramento Area Office
(SAO), Sacramento, California, from August 1992 through September
1994. Inspectors interviewed officials from the Sacramento Area
Office, WAPA Headquarters, DOE Headquarters, and certain staff
elements of the General Services Administration (GSA), the Federal

Energy Regulatory Commission (FERC), and various utility industry
companies between August 1992 and January 1994.

This inspection was conducted in accordance with "Quality
Standards for Inspections" issued by the President's Council on
Integrity and Efficiency.
III.   SUMMARY RESULTS OF INSPECTION

The Office of Inspector General (OIG) Hotline received an
allegation from an anonymous complainant who said that two
multimillion dollar power purchase contracts awarded by WAPA's
Sacramento Area Office were awarded without being publicly
advertised and without receiving bids from other companies. The
contracts referenced in the allegation included a contract awarded
to PacifiCorp in September 1992 for the purchase of 75 megawatts
(MW) to 150MW of firm power for 20 years, and a contract awarded
to Portland General Electric in August of 1987 for the purchase of
65MW of firm power for 25 years. The complainant alleged that the
award of the PacifiCorp contract resulted in a dramatic increase
in costs to DOE, and ultimately the customer, of two to three
times what those costs should have been. The anonymous
complainant was concerned about the propriety of the process for
entering into these contracts, and alleged that, at the very
least, these contracts may have been entered into because of a
conflict of interest.

The inspection found that, as alleged, WAPA had not publicly
advertised its power purchase requirements or formally solicited
bids from other companies in the two instances cited in the
allegation. WAPA takes the position that their power purchase
program is exempt from Federal competition and contracting
requirements. However, even though WAPA did not apply these
requirements, WAPA had not developed any other written internal
policies and procedures for the solicitation, negotiation, award,
or documentation of power purchase contracts.

We were unable to determine whether the rates negotiated under the
PacifiCorp contract were the best rates available to WAPA because
of the absence of formal competition in the award of this contract
and the absence of documentation of the negotiation and award
processes. However, the inspection found no evidence that, as
alleged, the award of the PacifiCorp contract resulted in costs to
DOE and WAPA's customers of two to three times what they should
have been. We found that, based on documentation provided by
WAPA, the rates included in the PacifiCorp contract were
comparable to the rates under other existing contracts. The
PacifiCorp rates were higher than some existing contracts but
lower than others. An independent consultant, who had reviewed
certain aspects of this contract for WAPA, showed that exercising
an additional long term purchase option under this contract would
exceed the cost of the best short term option for the period 1995
through 1997. However, the independent consultant stated that
exercising this option would result in substantial savings on an
annual basis after 1998. A WAPA official acknowledged that this
contract would cost more in the early years than other sources,
and said that the impact of this contract on WAPA customers would
be an increase in rates of approximately two percent during the
period 1993 through 1998.

The inspection found no evidence to support the allegation of a
possible conflict of interest.

The inspection identified several management issues regarding
WAPA's power purchase program: the lack of formal competition;
the absence of internal policies and procedures; the absence of
Federal regulations regarding power purchases; and, the absence of
management oversight of WAPA's power purchase program.

      Lack of Formal Competition

Our inspection found that WAPA awards long and short term power
purchase contracts without the use of full and open competition,
even though more than one source of supply exists and individual
contracts can be worth hundreds of millions of dollars. WAPA has
awarded individual power purchase contracts that range in value
from a few thousand dollars to more than $1 billion. WAPA's power
purchase costs averaged more than $250 million per year during
Fiscal Years 1991 and 1992. In place of formal competitive
procedures, WAPA uses informal screening methods to identify
potential suppliers of power.

Therefore, the reasonableness of rates for power purchase
contracts is not established through full and open competition.
Rather, WAPA officials stated that they use comparisons of
previous contract rates, budget analysis, cost projections, FERC
review, and the public rate process to assure that power purchase
contract rates are reasonable. However, we found that the FERC
review does not assure that the rates under individual power
purchase contracts are the best rates available to WAPA. We also
found that the public rate process does not address the
reasonableness of rates included in individual power purchase
contracts. In addition, we found that WAPA did not prepare
documentation such as Price Negotiation Memoranda or
certifications of the reasonableness of negotiated rates which
would normally incorporate any analyses or comparisons performed
by WAPA in establishing the reasonableness of rates.

Our inspection found that the public utility industry in the West
is moving toward the use of formal competitive procedures, such as
Requests for Proposals, when purchasing power. WAPA, although
aware of this trend, had only used formal competitive procedures
under its power purchase program on a limited basis. However, in
commenting on a draft of this report, the WAPA Administrator
stated that WAPA is committed to issuing Requests for Proposals in
the future to meet long term resource needs.

      Absence of Internal Policies and Procedures

Our inspection found that WAPA has not developed any written
internal policies and procedures for the solicitation,
negotiation, award, or documentation of power purchase contracts.
We found that WAPA does not maintain formal written documentation
in the official contract files of its market searches, contacts
with potential suppliers, the decisions leading to contract
negotiations with a single source, or the justification for
contracting without the use of full and open competition. In
addition, we found no documentation to describe the price
negotiation process, the pricing information considered during
negotiations, or any certification or determination of the
reasonableness of negotiated rates.
      Absence of Federal Regulations Regarding Power Purchases

We could not find any Federal contracting requirements, including
requirements for competition, which were recognized by WAPA or the
Department's Office of Procurement and Assistance Management as
being applicable to WAPA's power purchase program. WAPA does not
apply the competition requirements of CICA, which are implemented
in the FAR, to its power purchase contracting program. WAPA's
General Counsel told us that he believes that WAPA is exempt from
these requirements because of specific language in FAR Part 8,
REQUIRED SOURCES OF SUPPLIES AND SERVICES. FAR Part 8 directs
that GSA will be used as the required source of utility services
for Federal agencies. Also, FAR Part 8 excludes Federal power
marketing agencies from the requirement to use GSA as the required
source of utility services. WAPA's General Counsel interprets
this exclusion as a broad exclusion of all the provisions of the
FAR in relation to its power purchase program, including the
competition requirements of CICA.

An official from the Office of Procurement and Assistance
Management told us that he believes that WAPA's power purchase
program is not part of the procurement system and, thus, is not
covered by the FAR. This official said that the Office of
Procurement and Assistance Management has believed that the FAR
does not apply to the power purchase programs of the Power
Marketing Administrations because the purchase of power involves
the buying and selling of a commodity rather than the purchase of
power for direct use. He said that he did not believe that the
buying and selling of a commodity meets the definition of supplies
or services by and for the use of the Federal Government under the
FAR. In addition, he said he did not believe that this
understanding had been documented nor had the applicability of
CICA to the power purchase programs of the PMAs been addressed by
DOE.

We believe that the applicability of Federal contracting
requirements, including the requirements for competition, to
WAPA's power purchase program should be reviewed by the
Department. In our view, the exclusion cited by WAPA in FAR
Part 8 may only apply to that specific section of the FAR without
providing a broader exclusion to include all of the competition
and contracting requirements of the FAR. Further, if power
purchases are not a part of the procurement system as stated by
the Office of Procurement and Assistance Management, it is not
clear to us why there is a need for an exclusion in FAR Part 8
concerning power purchases.

An Attorney-Advisor under the Assistant General Counsel for
Procurement and Financial Assistance also expressed the opinion
that this issue needs further review. As a follow-up to a draft
of this report, the Attorney-Advisor reviewed the issue of the
applicability of the FAR and CICA to the power purchase program of
WAPA. In a memorandum to the Office of Procurement and Assistance
Management, the Attorney-Advisor stated that FAR Part 8 does not
specifically exclude WAPA's power purchasing program from FAR
requirements, and that it would seem inappropriate to interpret
FAR Part 8 as an exemption from CICA or the FAR competition
requirements. The Attorney-Advisor also found no support for the
view that WAPA's power purchases were not part of the Department's
procurement system. The Attorney-Advisor suggested that WAPA
prepare a draft legal opinion as a first step in the resolution of
this issue.

In addition, we believe that a portion of the power purchased by
WAPA for resale may meet the definition of an acquisition "of
supplies and services . . . by and for the use of the Federal
Government" under the FAR because some of WAPA's customers are
Federal agencies. We also believe that the Department should
consider the applicability of CICA separate from the applicability
of the FAR since the applicability provisions of CICA to
procurements by executive agencies are not the same as the
applicability provisions of the FAR. Whereas the FAR applies to
"the acquiring by contract with appropriated funds of supplies or
services . . . by and for the use of the Federal Government,"
CICA applies to "an executive agency in conducting a procurement
for property or services" without reference to the Federal
Government being the user.

       Absence of Management Oversight

Our inspection found that DOE Headquarters has no program to
periodically review WAPA's power purchase program. The
Procurement Management Reviews of the Office of Procurement and
Assistance Management have not addressed the power purchase
contracting programs of the PMAs because the purchase of power has
not been viewed as a procurement under the FAR. In addition, the
former Office of Assistant Secretary for Conservation and
Renewable Energy, which had responsibility for the management
oversight of the PMAs, did not conduct any reviews of WAPA's power
purchase contracting program. Oversight management of the PMAs
was transferred to the Office of the Deputy Secretary on June 10,
1993. On June 16, 1994, the Deputy Secretary testified before the
Subcommittee on Oversight and Investigations, Committee on Natural
Resources, U.S. House of Representatives, regarding WAPA's Energy
Planning and Management Program which sought to promote long-term
energy planning and efficient energy use. In the area of power
purchases, this testimony included a statement that Requests for
Proposals will be issued to meet long-term resource needs.


IV.   BACKGROUND

Inspection Initiation

The Office of Inspector General (OIG) Hotline received an
allegation from an anonymous complainant who said that two
multimillion dollar power purchase contracts awarded to PacifiCorp
and Portland General Electric by WAPA's Sacramento Area Office
were awarded "without going through the public process and without
receiving bids from other companies." The complainant alleged
that the award of the PacifiCorp contract resulted in a dramatic
increase in costs to DOE, and ultimately the customer, of two to
three times what those costs should have been. The complainant
also alleged that these contracts may have been entered into
because of a conflict of interest. The complainant said that the
PacifiCorp contract was for the purchase of 150 MW, and had a
value of approximately $100 million a year for 25 years. The
Portland General Electric contract was alleged to have been for
the purchase of 65 MW with no specific dollar value or length of
contract provided.

Our review determined that the contracts in question were:

      1. Contract Number 92-SAO-30006 between WAPA and PacifiCorp
         for the purchase of 75MW to 150MW of firm capacity for 20
         years with an approximate value of $1 billion dollars
         (Note: Subsequent to our initial review, WAPA elected not
         to exercise their option to purchase 75MW of the total
         150MW available under this contract, reducing its value
         to approximately $600 million); and,

      2. Contract Number 87-SAO-30002 between WAPA and Portland
         General Electric for the purchase of 65MW of firm power
         for 25 years with an approximate value of $1 billion
         dollars.

Creation of Western Area Power Administration

The Western Area Power Administration was created in 1977 with the
establishment of the Department of Energy under the Energy
Organization Act (42 U.S.C. 7101), and is one of five Power
Marketing Administrations. The other four PMAs--Alaska,
Bonneville, Southeastern, and Southwestern--had previously been
formed under the Department of the Interior. The Energy
Organization Act consolidated the marketing of federal power and
the PMAs under DOE, including the power marketing functions of the
Bureau of Reclamation.

WAPA markets and transmits federally produced power in 15 central
and western states, including California, Oregon, Nevada, Montana,
Arizona, Utah, New Mexico, Texas, North Dakota, South Dakota,
Iowa, Colorado, Wyoming, Minnesota and Nebraska. WAPA's power
marketing function is divided among five area offices, including
Billings, Montana; Loveland, Colorado; Phoenix, Arizona;
Sacramento, California; and Salt Lake City, Utah.

WAPA's Power Purchase Program

WAPA's Power Marketing Policy Guidelines and Procedures state that
the power marketing program can include, in addition to the sale
of power from Federal generating facilities, a program to purchase
capacity and/or energy.

WAPA purchases power under three categories. These include long
term purchases, purchases through short term agreements, and spot
purchases. These types of purchases are defined as follows:

      - Long Term:   Generally represents purchases of energy
                     and/or capacity for periods greater than a
                     year.
      - Short Term:   Generally represents purchases of energy
                      and/or capacity for a period of less than one
                      year (including seasonal purchases).

      - Spot:         Generally represents purchases of energy for
                      a very short term (from a few hours to two
                      weeks).

WAPA Appropriations

WAPA finances its power purchase and wheeling (transmission)
activities through congressional appropriations and alternative
financing arrangements such as bill crediting, net billing,
reimbursements, and nonappropriation transfers. As shown in the
Department of Energy FY 1993 Budget Justification, WAPA's FY 1993
power purchase and wheeling budget request of $258,716,000 is
financed as follows:

      Method of Financing               FY 1993 Request

      Appropriations                     $115,293,000
      Bill Crediting                       82,000,000
      Net Billing                          14,713,000
      Reimbursements                       44,350,000
      Nonapprop. Transfers                  2,360,000
        Total                            $258,716,000

These methods of financing are defined by WAPA as follows:

      - Appropriations represent funds appropriated directly from
        Congress.

      - Bill Crediting is a contractual arrangement that allows
        for the netting of transactions among at least three
        parties. The parties agree in advance that amounts owed
        to one party from a second party can be paid directly to a
        third party. The third party would then credit the first
        party's bill for services provided by the third party.

      - Net Billing is a result of services rendered between two
        parties within a common period with an offset in expense
        on the net bill between the two.

      - Reimbursements: There are two types of reimbursable
        financing: Federal and non-Federal. The cost of services
        performed for other Federal agencies is reimbursable from
        those agencies. For non-Federal entities, the cost of
        services performed can also be reimbursable; however, the
        funds must be provided in advance of the expenditures.

      - Non-appropriation Transfer (NAT): Non-appropriated funds
        (i.e. receipts) are transferred to another Federal
        supplier for payment of services rendered by that other
        Federal supplier.

Cost of WAPA's Power Purchase Program
For Fiscal Years 1991 and 1992, WAPA incurred total costs of
$503,830,652 for the purchase of power. As shown below, long term
power purchase contracts represented 67 percent of the total,
while short term and spot purchases accounted for 15.4 percent and
17.6 percent respectively:

CATEGORY            FY 91           FY 92              TOTAL          PERCENT

Long Term       $148,896,320   $189,464,722       $338,361,042          67
Short Term        33,283,666     44,772,959         78,056,625          15.4
Spot              44,635,964     42,777,021         87,412,985          17.6
  Total         $226,815,950   $277,014,702       $503,830,652         100.0

The majority of power purchase costs in FY 91 and FY 92 were
incurred by WAPA's Sacramento Area Office. SAO incurred costs of
$173,166,167 in FY 91 (or 76 percent of WAPA's total incurred
power purchase costs for FY 91) and $213,261,998 in FY 92 (or 77
percent of WAPA's total incurred power purchase costs for FY 92).

Long Term Purchases by WAPA

Long term power purchase contracts can range from one year to 30
years. These contracts are based on WAPA's determination of
capacity and energy needs considering the future availability of
resources from Federal hydroelectrical facilities, future demand,
and the statutory authority to purchase up to 400 megawatts of
power to meet Central Valley Project customer needs in California.

WAPA has awarded eight long term power purchase contracts to six
suppliers since 1982. The total value of these contracts is
$3,596,017,000. The following table shows the contract number,
contractor, date awarded, and the contract amount for each of
these contracts.

CONTRACT                                      DATE         CONTRACT
 NUMBER                CONTRACTOR            AWARDED        AMOUNT

DE-MP65-82WP-19001     Basin Electric        4/15/82   $   243,658,000
(5 + Years)

2D07D70-P2087          Shoshone                 3/82   $       6,500,000
(30 Years)             Irrigation

DE-MS65-83WP-59068     Longview Fiber       10/31/83   $   297,828,000
DE-MP65-85WP-59106     Longview Fiber       01/31/86
(20 Years)

DE-MP65D84WP-59099     City of Tacoma         1/1/85   $   376,960,000
(20 Years)

87-SAO-30002           Portland General      8/25/87   $1,037,191,000
(25 Years)

91-SAO-30005           PacifiCorp           10/01/91   $1,031,908,000
(20 Years)
92-SAO-30006          PacifiCorp        9/17/92     $   601,972,000
(20 Years)
                                        Total       $3,596,017,000
                                                    MMMMMMMMMMMMMM

In addition to these eight long term contracts, SAO has a contract
with Pacific Gas and Electric (PG&E), Contract No. 14D06D200D2948A
(2948A), for the purchase of energy and capacity which is
estimated by an SAO official to be worth $1,122,841,000 (from
January 1991 through December 2004). This contract was awarded
under the U.S. Department of Interior on July 31, 1967. SAO makes
a distinction between the long term contracts identified above and
the contract with PG&E. SAO refers to the long term contracts as
Interconnection Agreements which they described as independent
agreements where one party provides services to meet the needs of
the other party. SAO refers to the PG&E contract as an
Integration Agreement which they described as a co-dependent
agreement where both parties to the contract have certain services
and resources that can complement each other.



Short Term Purchases by WAPA

Short term purchases can range from agreements that are entered
into for a week to two, to seasonal Letters-of-Agreement that
cover energy purchases up to a year. These purchases are made to
satisfy capacity and energy requirements that cannot be met using
the resources of the Federal hydroelectric facilities.

Spot Purchases by WAPA

Spot purchases are "real time" agreements made the day before or
the same day the power is needed. These purchases are made to
take advantage of low-priced, non-firm energy, or to support
capacity during times when required generation levels cannot be
met. At SAO, spot purchases do not result in a specific written
contract. Spot purchases at SAO are verbal agreements between
schedulers/dispatchers of WAPA and the supplier.


V.   RESULTS OF INSPECTION

The results section of this report is divided as follows:

     A.   WAPA POLICIES, PROCEDURES AND PRACTICES

     B.   COMPETITIVE TRENDS IN THE POWER INDUSTRY

     C.   APPLICABILITY OF THE COMPETITION REQUIREMENTS OF CICA AND
          THE FAR

     D.   DOE HEADQUARTERS' MANAGEMENT OVERSIGHT OF THE POWER
          PURCHASE PROGRAMS OF THE POWER MARKETING ADMINISTRATIONS


A.   WAPA POLICIES, PROCEDURES AND PRACTICES
Our inspection found that WAPA has not developed any written
internal policies and procedures for the solicitation,
negotiation, award, or documentation of power purchase contracts.
In addition, WAPA awards long and short term power purchase
contracts without the use of full and open competition, even
though more than one source of supply exists and individual
contracts can be worth hundreds of millions of dollars.
Therefore, the reasonableness of rates for power purchase
contracts is not established through full and open competition.

This section reviews WAPA's power purchase contracting policies
and procedures, the solicitation practices used by WAPA for power
purchase contracts, and the practices used by WAPA to determine
the reasonableness of rates under individual power purchase
contracts.

WAPA's Power Purchase Contracting Policies and Procedures

WAPA has not developed any written internal policies and
procedures for the solicitation, negotiation, award, or
documentation of power purchase contracts. WAPA's internal
policies and procedures relating to power purchase contracts are
contained in a handbook titled WESTERN AREA POWER ADMINISTRATION,
POWER MARKETING, POLICY AND GUIDELINE PROCEDURES. The purpose of
this handbook includes the documentation of existing WAPA policy
and the promotion of power marketing practices and procedures
throughout WAPA. However, this handbook provides no internal
policies, procedures, or guidance that govern the specific manner
in which power purchase contracts are solicited, negotiated,
awarded, or documented.

WAPA officials said that WAPA Orders and Directives do not provide
detailed policies and procedures for the power purchase
contracting process. These officials said that power purchase
contracting procedures are very broad, and that, for example,
there are no formal policies on contract documentation relating to
Findings and Determinations, Analysis of Offers, or Record of
Negotiations. The SAO Assistant Manager, Power Marketing, said
that the power purchase contracting process follows WAPA's general
contracting provisions and WAPA Order 6120.1, POWER MARKETING
POLICY, FUNCTIONS, AND DELEGATIONS. Our review of this order
found that it defines the Western Area Power Administration's
(WAPA) functions, responsibilities, practices, and delegations of
authority for the development of power marketing policy and for
the negotiation, review, execution, and administration of power
marketing contractual documents. However, consistent with the
statements of other WAPA officials, this document was found to be
very broad and lacking in any specific policy or procedural
guidance in areas such as contract solicitation, negotiation,
award, or documentation.

Solicitation Practices used by WAPA for Power Purchase Contracts

WAPA awards long and short term power purchase contracts without
the use of full and open competition, even though more than one
source of supply exists and individual contracts can be worth
hundreds of millions of dollars. WAPA has awarded individual
power purchase contracts that range in value from a few thousand
dollars to more than $1 billion. WAPA's power purchase costs
averaged more than $250 million per year during Fiscal Years 1991
and 1992. In place of formal competitive procedures, WAPA uses
informal screening methods to identify potential suppliers of
power.

We found that SAO power marketing personnel generally solicit and
screen the power industry using informal methods, and that the
methods used to identify, select, and negotiate with a particular
supplier are not consistent from purchase to purchase. For
example, we found that suppliers are identified using methods that
include informal screenings, dispatcher contacts with suppliers,
WAPA Headquarters knowledge of the availability of power from a
single source or a limited number of sources, and the use of a
written request for quotes in at least one instance. SAO
officials said that their methods are dependent on the timing and
need of the purchase, and unlike procurement purchases, SAO needs
to follow-up on a lead as quickly as possible in order not to lose
the opportunity to another purchaser. SAO officials said that if
they missed the opportunity, they may end up paying more for the
needed power from another supplier.

We did find evidence of limited competition in one instance
involving a short term purchase by SAO, and we found two instances
where the Salt Lake City Area Office (as discussed in Section B of
this report) used a "Request for Proposal." However, WAPA's long
and short term contracting actions often give the appearance of
sole source procurements. For example, we found that WAPA does
not generally advertise its power purchase requirements. In
addition, we found that key pieces of documentation including
documented Market Searches, Analysis of Offers, Records of
Negotiation, Findings and Determinations, Contracting Officers
Decisions, minutes of key meetings, and Justifications for Other
Than Full and Open Competition, normally associated with
acquisitions and negotiated contracts performed under the
requirements of the FAR, are not prepared by WAPA's power
marketing personnel. The SAO Assistant Manager, Power Marketing,
said that workload has a negative impact on SAO's ability to
formally document contracting actions and that SAO "can't make
good documentation without staff."

      Long Term Power Purchase Contracts

WAPA has awarded eight long term power purchase contracts to six
suppliers since 1982 with a total value of $3,596,017,000. Long
term power purchase contracts represent purchases of energy and/or
capacity for periods greater than a year. Long term power
purchase contracts have generated 67 percent of all power purchase
costs incurred by WAPA in FY 91 and FY 92 ($148,896,320 in FY 91
and $189,464,722 in FY 92). The two long term contracts
specifically included in our review were the PacifiCorp contract
(No. 92-SAO-30006), and the Portland General Electric contract
(No. 87-SAO-30002). These contracts were for terms of 20 and 25
years with values exceeding $600 million and $1 billion
respectively. These contracts were selected for review because of
allegations that they were awarded without going through the
public process and without receiving bids from other companies.
The complainant was concerned about the propriety of such actions,
and alleged that these contracts may have been entered into
because of a conflict of interest.

Our inspection found that the PacifiCorp and Portland General
Electric contracts were awarded without the use of full and open
competition or other formal competitive procedures. We found that
WAPA did not synopsize the proposed acquisitions in the Commerce
Business Daily and did not use any other form of public notice.
We also found that WAPA did not use a Request for Proposal (RFP),
relying instead on informal screenings and contacts with potential
suppliers. These contacts were often in the form of telephone
calls, and were not documented in the official contract files.
However, we found no evidence to support a conflict of interest as
suggested in the allegation.

      D PacifiCorp Contract

With regard to the PacifiCorp contract, the Director, Contracts
and Conservation Division, SAO, said that SAO dispatchers
contacted sources who might have had power resources available.
He said that there were only six or seven suppliers who could meet
WAPA's requirements and that some of these suppliers may have made
presentations to WAPA after being contacted. He said that formal
negotiations were only conducted with PacifiCorp, and that the
decision to open negotiations with PacifiCorp was made by SAO
management, but that no record of this decision was prepared.

We found no documentation in the official contract file that
described WAPA's market search, WAPA's analysis of any
presentations made by other potential suppliers, the process used
to eliminate other potential suppliers, or the decision to
negotiate solely with PacifiCorp (e.g. a Sole Source
Justification, or a Justification for Other Than Full and Open
Competition). WAPA did maintain copies of unsolicited offers and
minutes of discussions with various suppliers from November 26,
1991, to July 24, 1992, but these documents were not part of any
official contract file, and could not be associated with a
specific request for power or a specific power purchase.

An SAO official said that WAPA Headquarters officials may have
suggested that PacifiCorp had power to sell and that SAO should
"check it out." This official said that SAO power purchase staff
contacted several suppliers to determine who may have had power to
sell. This official said that SAO staff presented comparisons and
spreadsheets to describe SAO's purchase options. However, these
documents were not part of the contract file and could not be
produced during our inspection.

      D Portland General Electric Contract

Our review of the Portland General Electric (PGE) contract also
found no evidence of full and open competition or other formal
competitive procedures. The contract file did not include any
documentation describing the solicitation process, contacts with
any other suppliers, or the decisions leading to negotiations with
PGE. The Director, Contracts and Conservation Division, SAO, said
that the solicitation process used by SAO for long term contracts
was informal, and that this was consistent with WAPA practices.

      Short Term Power Purchase Contracts

WAPA awards numerous short term power purchase contracts each year
which range in value from a few thousand dollars to several
million dollars. Short term purchases can range from agreements
that are entered into for a week to two weeks, to seasonal
agreements that cover purchases up to a year. WAPA's short term
power purchase contracts have generated 15.4 percent of all power
purchase costs incurred by WAPA in FY 91 and FY 92 ($33,283,666 in
FY 91 and $44,772,959 in FY 92). At SAO, short term purchases
fall into two categories: (i) short term purchases initiated by
SAO Power Marketing personnel, and (ii) short term purchases
initiated by SAO dispatchers.

Our review of a sample of short term purchases initiated by SAO
Power Marketing personnel found that short term power purchase
contracts are awarded without the use of full and open
competition. For example, our review of Contract No. LAO
90-SAO-10059, awarded to Basin Electric Power Cooperative (Basin)
with a value of $15,600,000 (for 600,000 megawatt hours (MWh) of
energy purchased between November 1, 1990, through October 31,
1991), found no evidence of any form of public notice, and no
evidence of the use of a Request for Proposal (RFP). The official
contract file contained no documentation to describe the process
used to identify Basin as a supplier, no documentation to describe
the analysis of any other offers, and no documentation to describe
the process or reasoning used in the decision to award a contract
to Basin.

We found one instance where SAO issued a written request for
quotes dated June 26, 1992, to the members of the Northern
California Power Pool (NCPP) relating to a need for 440 MW of
capacity and 227,000 MWh of energy. The contract files did not
contain any written responses from the members of the NCPP, but
did contain a spread sheet titled "Preliminary Responses to
Western SAO's Needs in Support of PDC of 1010 MW" which presented
energy and pricing information from five suppliers. The request
for quotes resulted in the award of four short term contracts to
three of these suppliers. However, the contract files did not
describe the process used to eliminate the other three suppliers
and did not contain any documentation (such as an analysis of
offers) describing the decision to negotiate with the suppliers to
which the four contracts were awarded. The Director, SAO Division
of Power Resource Planning, said that there is no requirement to
keep contract documentation and that the documentation that does
exist was kept on the Director's own initiative.

Short term power purchases initiated by dispatchers are solicited
without the use of full and open competition, but limited
competition may be achieved. The SAO Director, Power Systems
Operations and Scheduling, said that, when a short term need is
identified, dispatchers ask those sources that they know and do
business with to submit bids by a certain date. He said that
suppliers of short term power were identified by talking to
Northwestern power suppliers, talking to power pool suppliers, and
looking for the cheapest power. He said that the dispatchers
usually have time to survey every company that SAO is doing
business with, and that the lead time on these purchases is
normally 1 to 15 days. These initial requests for bids are verbal
and all conversations are tape recorded. He said that the typical
response to SAO's request for bids is also verbal, and that a
letter reflecting the agreement is issued at a later date.

      Spot Purchases

WAPA's spot purchases have generated 17.6 percent of all power
purchase costs incurred by WAPA in FY 91 and FY 92 ($44,635,964 in
FY 91 and $42,777,021 in FY 92). Spot purchases are "real time"
agreements made the day before or the same day the power is
needed. At SAO, spot purchases are initiated through
informal/verbal contacts between schedulers and potential
suppliers, and include suppliers who have a pre-existing agreement
with SAO. SAO officials said that they have entered into such
agreements with nearly every supplier that has the capability of
meeting SAO's needs.

The SAO Director, Power Systems Operations and Scheduling, said
that spot purchases are "real time" or day before purchases and
may cover a two week period. He said that SAO schedulers contact
the potential suppliers, and that these contacts are tape
recorded. He said that taping is standard in the industry and is
WAPA policy. The schedulers verbalize the need, obtain rate
quotes and accept rates at, or below, those established by the SAO
Power Marketing group. He said that spot purchases are made with
suppliers who have an existing letter agreement with WAPA. He
said that spot purchases do not result in written agreements for
each spot purchase, but are recorded at the time in a dispatcher's
log. In the case of spot purchases, we do not believe that the
use of full and open competition would be applicable due to the
short time frame between the identification of the need for the
power and the actual use of that power.

      WAPA's Explanation for Limited Competition

As a matter of policy, WAPA (as discussed in Section C of this
report) does not believe that they are bound by the requirements
of the Federal Acquisition Regulation or the Competition in
Contracting Act to seek competition in the solicitation and award
of power purchase contracts. As a matter of practicality, WAPA
officials believed there was no need to use formal solicitations
since they were aware of the availability of power resources
throughout the power industry, and knew which suppliers could meet
WAPA's power purchase requirements.

The SAO Director, Contracts and Conservation Division, said that
the informal process used to solicit offers from potential
suppliers was consistent with WAPA historical practices. The SAO
Deputy Area Manager said that these practices evolved from
industry tradition. He said that WAPA did not see any need to
formally advertise power purchases because formal advertising
would result in a lot of potential suppliers bidding single units
(i.e. only one source of generation). He said that suppliers of
this type would not meet WAPA's needs since WAPA requires
suppliers with redundant capabilities (i.e. suppliers that could
meet contractual commitments even if a portion of their generating
capability went down for some unforeseen reason).

The SAO Deputy Area Manager said that SAO contacted sources they
knew could fill WAPA needs. He said that prospective suppliers
were screened by considering (i) their potential for long term
system sales, (ii) whether they had surplus power, and (iii)
whether they had transmission rights. He said that SAO, through
formal and informal knowledge and constant dealings with power
suppliers, knew who had power, who wanted to sell power, and which
suppliers could meet WAPA requirements. He also said that WAPA
contracting policy is very broad, that WAPA did not have formal
power purchase contracting procedures, and did not create a lot of
documentation. One WAPA official said that WAPA's power purchase
contracting procedures were written to be broad so as to allow
their power marketing personnel flexibility to take advantage of
power purchase opportunities when those opportunities presented
themselves.

One WAPA official said that, from the experiences of Sacramento
Municipal Utility District and Northern California Power Agency,
formal solicitations often resulted in "flaky or high risk"
proposals from independent power producers who were looking for a
contract to use for financing the construction of private power
projects. This official noted that WAPA has a requirement for
firm power resources which could only be met by a hand-full of
suppliers in the industry, and that WAPA knows who these suppliers
are and when they have power to sell. This official noted that
formal solicitations could result in numerous responses which
would take an excessive number of staff days to review.

      Contract 2948A Constraints

WAPA officials said that a contract with Pacific Gas and Electric
(PG&E) contained constraints which limited WAPA's capability to
seek competition when purchasing power. This contract, referred
to as 2948A, provides for the sale, interchange, and transmission
of electric capacity and energy between WAPA and PG&E. WAPA
officials said that the 2948A contract with PG&E contains two
impediments to competition when purchasing power for the Central
Valley Project (CVP) in California. WAPA officials said that
these include a requirement that WAPA must look to purchase power
from the Northwest, and that the power purchased must represent a
"System Purchase" where the supplier has redundant generation
capability, as opposed to a "Unit-Contingent" purchase where the
supplier has only one source of generation.

WAPA officials said that due to these constraints, and given
WAPA's knowledge of available power resources and transmission
possibilities, the number of power suppliers capable of meeting
WAPA's power needs during the time period of the PacifiCorp
purchase was limited. WAPA officials said that in no way should
these constraints and limited number of suppliers capable of
meeting WAPA's needs be equated with a lack of competition. WAPA
officials believe that under the terms and conditions of 2948A,
WAPA's realistic resource options "are limited to Pacific
Northwest suppliers capable of selling power on a system basis."
WAPA officials said that "access to cost-effective transmission to
anywhere other than the Pacific Northwest was limited during the
time period of the PacifiCorp negotiations." They also said that
"Unit-contingent sales, given the capacity credit feature of
2948A, were not cost-effective if available at all."

WAPA's Practices for the Determination of the Reasonableness of
Rates under Individual Power Purchase Contracts

The reasonableness of rates for power purchase contracts is not
established through full and open competition. Rather, WAPA
officials stated that they use comparisons of previous contract
rates, budget analysis, cost projections, FERC review, and the
public rate process to assure that power purchase contract rates
are reasonable. However, we found that the FERC review does not
assure that the rates under individual power purchase contracts
are the best rates available to WAPA. We also found that the
public rate process does not address the reasonableness of rates
included in individual power purchase contracts. In addition, we
found that WAPA did not prepare documentation such as Price
Negotiation Memoranda or certifications of the reasonableness of
negotiated rates which incorporated any analyses or comparisons
performed by WAPA in establishing the reasonableness of rates.

      Practices for Determining the Reasonableness of Rates

The practices relevant to the establishment of the reasonableness
of rates for power purchase contracts were described by WAPA
Headquarters officials at the outset of our inspection as
including:

      - comparison of rates with other resources;

      - review of individual power purchase contracts by the FERC;
        and,

      - the public rate process.

We were told that these practices include a mixture of comparisons
of rates with prior contracts, budget considerations, and
assumptions and projections as to future prices of gas, oil and
coal used in energy producing plants during the term of the
particular contract. However, these practices do not necessarily
assure that the rates under individual power purchase contracts
are the best rates available to WAPA, and do not represent a
formalized process for determining and documenting the
reasonableness of rates for individual power purchase contracts.
By comparison, the FAR provides specific procedures for the
pricing of negotiated contracts and the documentation of the
principle elements of the price negotiation. However, WAPA claims
an exemption to the FAR and has not instituted these, or similar,
procedures. WAPA officials said that "Western believes that
comparison of rates, quoted by suppliers with knowledge that
several utilities are being asked about power availability,
embodies competitiveness and can determine the reasonableness of
the rates."

      FAR Procedures for Contracting by Negotiation

For contracts awarded under FAR procedures, there are specific
requirements for contracting by negotiation. The FAR Part 15,
CONTRACTING BY NEGOTIATION, Subpart 15.8, PRICE NEGOTIATION,
prescribes the cost and price negotiation policies and procedures
applicable to initial and revised pricing of negotiated contracts.
The FAR requires the contracting officer to request cost or
pricing data and evaluate this data using techniques such as cost
analysis, price analysis, technical analysis, and/or field pricing
support. The contracting officer is then required to prepare a
Price Negotiation Memorandum outlining the principle elements of
the price negotiations.

Our inspection found that WAPA has not developed any system
similar to the FAR for documenting their determination of the
reasonableness of rates negotiated under individual power purchase
contracts. We found no documentation describing the price
negotiation process, no documentation that described the pricing
information considered during the negotiations, no documentation
that presented any differences between WAPA's pricing position and
that of the supplier, no Price Negotiation Memoranda, and no
certification or determination of the reasonableness of rates.

      Reasonableness of Rates in the PacifiCorp Contract

The OIG Hotline allegation stated that the PacifiCorp contract
awarded by WAPA's Sacramento Area Office resulted in a dramatic
increase in cost to DOE and ultimately the customer of two to
three times what those costs should have been. We found no
evidence that the PacifiCorp contract resulted in costs to DOE or
WAPA customers of two to three times what they should have been.
We found that, based on documentation provided by WAPA, the rates
included in this contract were comparable to the rates under
existing contracts, with the rates being higher than some existing
contracts but lower than others. We did find that the cost of
this contract was questioned by WAPA customers, and that the rates
included in this contract may have been higher during the initial
period of the contract than the rates available from other
sources. However, we were unable to determine whether the rates
negotiated under this contract were the best rates available to
WAPA because of the lack of formal competition in the award of
this contract and the lack of documentation of the negotiation and
award processes.

Our inspection found that there was some customer dissatisfaction
with regard to the cost of the long term contract awarded to
PacifiCorp in September 1992. WAPA's customers include Preference
Customers established by statute (including 43 U.S.C. 522, 43
U.S.C. 485h(c), and 16 U.S.C. 825s) such as public bodies,
cooperatives, and nonprofit organizations, and nonpreference
customers such as investor-owned utilities. In a letter dated
October 16, 1992, from the Sacramento Municipal Utility District
(SMUD) and the Northern California Power Agency (NCPA), SMUD and
NCPA registered their "objection to Western's execution last week
of a twenty year power contract with PacifiCorp. Not only do the
scope of the services and costs seem excessive, Western has
ignored its agreement with us to jointly evaluate such major
resource decisions." A WAPA official stated that Western's
Central Valley Project customers were verbally notified of the
purchase arrangements.

An independent consultant was commissioned by WAPA to compare the
costs and risks associated with various power supply alternatives
to a purchase of an additional 75 MW from PacifiCorp. This
additional 75 MW purchase represented an option under the
PacifiCorp contract. The consultant's report, dated December
1992, said that the comparison of the cost of the PacifiCorp
contract's 75 MW option with other sources was "intended to assist
in the go/no-go decision with respect to the purchase of the
additional 75 mw . . . ." In the report summary, the consultant
concluded that "power and energy purchased pursuant to the PPL
(PacifiCorp) contract will provide least cost capacity and energy
generally after about the year 2000. Short term purchase options
however may be less expensive until that time."

The report's financial analysis (base case) showed that the unit
cost of the 75 MW option under the PacifiCorp contract would
exceed the cost of the best short term option for the period of
1995 through 1997 by an average of 63 percent per year, or
approximately $12 million per year. However, the report also
noted that "if firm capacity and energy is required, the long term
option results in substantial savings on an annual basis after
1998 and is substantially better on a present value basis . . . ."
The report's Present Value Summary shows that the present value of
the PacifiCorp contract was approximately $30 million greater than
the least cost short term alternative for the period 1993 to 2000,

but that the difference in the present value of these same two
options was less than $1 million for the period 1993 to 2010.

The objections of SMUD and NCPA were later rescinded after SAO
agreed not to exercise the option in the PacifiCorp contract to
purchase the second 75 MW of the total 150 MW available under the
contract. SAO officials said that "SAO withdrew from the purchase
of the second 75 MW because we did not have full support from all
the customers," and that "SAO's purchase procedure was not
questioned, only its opinion on what will be available in the
future . . . ." However, our inspection found that there was no
documentation in the contract file describing the price
negotiation process, the specific pricing information considered
during the negotiations, or a determination of the reasonableness
of the negotiated rates under the contract for either the initial
75 MW or the additional 75 MW. The contract file did not document
WAPA's evaluation of factors and assumptions similar to those
considered by the consultant (i.e. risk, reliability, reserve
capacity, fuel escalation, or the present value of other options).

An SAO official acknowledged that the PacifiCorp contract would
cost more in the early years than other sources, such as short
term purchases or depletion of WAPA's Energy Account No.2 (EA-2)
with PG&E. WAPA's EA-2 account represents a limited amount of low
cost energy which is the result of surplus energy sold to PG&E by
WAPA during the months when WAPA's resources (CVP hydrogeneration
and purchases) exceed CVP energy load requirements. This official
said that, if one compared the cost of the PacifiCorp contract in
the first year (approximately 38 mills/KWh) to the cost of energy
in the EA-2 account (approximately 14 mills/KWh), it may appear
that the PacifiCorp contract was costing two to three times more
than it should. However, this official said that the impact of
this contract on WAPA customers would be an increase in rates of
approximately two percent during the period 1993 through 1998.
This official said that the EA-2 account has a limited amount of
energy available at low rates, and once it is depleted, WAPA must
replace this source with purchases at higher rates.

Prior to the award of the PacifiCorp contract, SAO Resources
Division did a comparison of rates with other existing power
purchase contracts. This information was then conveyed to SAO
Management in the form of a comparison chart. This chart showed
that the rates included in the PacifiCorp contract were comparable
to the rates under existing contracts, with the rates being higher
than some existing contracts but lower than others. However, this
chart did not include any certification of reasonableness, and the
contract file did not include any analysis of rates or other type
of reasonableness determination. SAO officials confirmed that
there is no formal procedure for certifying the reasonableness of
rates, and there is no formal documentation to evidence this
reasonableness determination. SAO officials said that "due to the
infrequent need for purchase of long-term power resources, and the
give and take common to contract negotiations, Western has not
developed detailed pricing procedures to date."

      Other Examples of WAPA's Practices for Determining the
      Reasonableness of Rates

Similar to the PacifiCorp contract, our inspection found other
examples where the contract files lacked documentation of the
negotiation and award processes. Our inspection identified a
short term purchase with Basin Electric Cooperative (No. LAO
90-SAO-10059) where the Letter of Agreement was awarded at a rate
higher than the documented pricing recommendation. In a draft
document titled "Principles of a Purchase from Basin Electric,"
dated April 25, 1990, the recommendation on price was as follows:

"The price of energy delivered and accepted at Malin
 shall be 25 mills per KWH (do not compromise this
 because this offer is at the maximum and this purchase
 will result in no savings to the SAO at this price, a
 higher price will result in a loss compared to other
 likely available sources in the NW and Canada)."

However, the Letter of Agreement, dated September 10, 1990, states
that "Western shall pay Basin Electric 26 mills per kWh for all
energy scheduled and delivered to the Point of Delivery." The
difference of 1 mill per KWh on this letter agreement was worth
approximately $600,000. During our inspection we found no
documentation that described WAPA's rationale for exceeding the
recommended maximum mill rate, nor any documentation to suggest
that the pricing principles identified in the draft document were
changed. SAO officials said that this document did not represent
SAO management's position on the rates that should have been paid
under this contract. However, SAO officials did not provide any
other documented position on rates for this Letter of Agreement.

Our inspection also identified four short term Letters of
Agreement awarded by SAO during a one month period in 1992 (as a
result of the same written request for quotes) where the
negotiated rates for capacity and energy were significantly
different, with Capacity Cost ranging from $4.90/kilowatt month
(KWm) to $7.50/KWm, and Energy Cost ranging from $29.30/MWh to
$34.00/MWh (On Peak) and $22.40/MWh to $32.00/MWh (Off Peak). The
contract files did not contain any documentation describing the
analysis of the agreed-to-rates, the factors that may have caused
variances in rates (such as transmission/wheeling, load factor,
seasonal adjustments, or point of delivery) from supplier to
supplier, or the rationale for paying significantly different
rates under the same request for quotes.

      FERC Rates Review

As noted above, one of the practices relevant to the establishment
of the reasonableness of rates for power purchase contracts
described by WAPA Headquarters officials was the review of
individual power purchase contracts by the FERC. We found that
the PacifiCorp long term power purchase contract was subject to
FERC review as described under Section 5, TERM AND TERMINATION,
Paragraph 5.2, REGULATORY APPROVAL, of their contract. However,
our inspection found that FERC only deals with regulation of
public utilities by reviewing the rates established by the utility
that it will charge the buyer, and that FERC does not determine if
rates under individual contracts are competitive with other
sources.

The Section Chief, Rate Filing Branch, Federal Energy Regulatory
Commission, said that under the Federal Power Act, the FERC only
determines the reasonableness of the rate proposed in the
contract. He said they do not determine if there are other
sources of power at lower rates available to the customer, whether
other sources have cheaper rates, or that the customer is getting
the "best deal" available.

The Section Chief said that FERC seeks to determine (i) whether or
not a particular rate is monopolistic, (ii) whether or not that
rate far exceeds the utility's cost, and (iii) whether that rate
is not so low as to be subsidized by the seller's other customers.
He said that FERC looks at the submitter's fixed cost and its
variable cost in determining reasonableness of the sale rates, and
does not care if this rate is more or less than other utilities
may be charging.

      Public Rate Review Process
WAPA Headquarters officials indicated that the Public Rate Review
process was one of several controls used to assure the
reasonableness of rates negotiated on power purchase contracts.
WAPA is normally required to issue Federal Register notices and
conduct public comment forums for all Power Marketing Plans,
allocations, and rates. However, our inspection found that the
Public Rate Review process does not apply to specific power
purchase contracts or agreements prior to award. The Public Rate
Review process only applies to composite rates developed from all
power sources available to WAPA (i.e. long term contracts, power
provided by the Bureau of Reclamation projects, and other
contracted power sources).

Conclusion

We believe that WAPA needs to develop and implement internal
policies and procedures that govern the manner in which power
purchase contracts are solicited, negotiated, awarded, and
documented. WAPA believes that power purchase contracts are not
subject to the requirements of the FAR or CICA, and, therefore,
WAPA does not apply the contracting requirements of the FAR
(including the requirements for documentation) to its power
purchase program. However, WAPA has not developed any other
written procedures that would provide for the control and
accountability of its power purchase program. WAPA's power
purchase program costs more than $250,000,000 per year, and
individual contracts can range in value from a few thousand
dollars to more than $1 billion. We believe that a program of
this size warrants specific procedural guidance on the
solicitation, negotiation, and award of power purchase contracts.

In this regard, we believe that WAPA needs to develop policies and
procedures that require documentation of the power purchase
contracting process, and documentation to support the analysis of
rates and the determination of the reasonableness of rates prior
to the award of all short and long term power purchase contracts.
As discussed in this section, WAPA does not document the key
elements of the power purchase contracting process which include
market searches, notifying potential suppliers of WAPA's
requirements, screening potential suppliers, evaluating offers,
selection of a supplier, and negotiation with that supplier.
Under WAPA's current practices, documentation is not developed to
support the pricing recommendations developed by WAPA for
individual power purchase contracts, the pricing information
relied on during negotiations, or the reasons for any pertinent
variances from WAPA pricing recommendations. In addition, WAPA
does not prepare documentation such as Price Negotiation Memoranda
or certifications of the reasonableness of negotiated rates which
incorporate any analyses or comparisons performed by WAPA in
establishing the reasonableness of rates. We believe that WAPA
should develop specific standards for the documentation of these
key elements of the power purchase contracting process.
B.   COMPETITIVE TRENDS IN THE POWER INDUSTRY

Our inspection found that the public utility industry in the West
is moving toward the use of formal competitive procedures, such as
Requests for Proposals, when purchasing power. WAPA, although
aware of this trend, has only used formal competitive procedures
under its power purchase program on a limited basis. This
includes the use of the "Request for Proposal" process in two
instances, and the use of a written request for quotes in one
instance. WAPA officials have indicated that a serious impediment
to competition is transmission access. However, we found that the
Energy Policy Act of 1992, Public Law 102-486, contains provisions
that are intended to improve transmission access within the power
industry. In commenting on a draft of this report, the WAPA
Administrator stated that WAPA is committed to issuing Requests
for Proposals in the future to meet long term resource needs.

This section reviews the current trends in the utility industry
and the opportunities for competition created under the Energy
Policy Act of 1992.

Trends in the Public Utility Industry in the West

The electric utility industry in the West is moving toward the use
of more formal competitive procedures in the purchase of
electrical power. Our inspection found that entities such as the
Sacramento Municipal Utility District (SMUD) and the Modesto
Irrigation District (MID) are currently utilizing competitive
procedures in the form of Request for Proposals (RFP). The City
of Redding Utilities (RU) and Northern California Power Agency
(NCPA) said that they would use the Request for Proposal (RFP)
process if the transmission line access problem is solved.

WAPA has only used formal competitive procedures under its power
purchase program in limited situations. The Salt Lake City Area
Office (SLCAO) has used the "Request for Proposal" process on two
occasions. These include an August 29, 1990, solicitation
expressing SLCAO's interest in purchasing long-term firm amounts
of energy up to approximately 400,000 MWh annually (beginning
January 1, 1991, and remaining in effect through September 30,
1999); and a May 18, 1993, solicitation expressing SLCAO's
interest in purchasing energy up to 400 gigawatt hours (GWh)
annually (starting October 1, 1993, and a latest ending date of
September 30, 1999). In addition, SAO issued a written request
for quotes dated June 26, 1992, to the members of the Northern
California Power Pool (NCPP) relating to a need for 440 MW of
capacity and 227,000 MWh of energy.

Some SAO officials have agreed that there are advantages
associated with the use of formal competitive procedures. One SAO
official said that "large public bodies" have used RFPs when
looking to purchase power, and that this seems to be the new way
to do business in the power industry. This official said that
SMUD and NCPA have found it easier to negotiate power purchases
when they have used the competitive process, and that RFPs and
competitive bids are becoming requirements because customers are
demanding more accountability from public utilities. Another SAO
official said that competition is becoming more appropriate and
more of an alternative. This official said that the RFP could be
used for initial screening of sources and would enhance WAPA's
credibility with its customers.

However, WAPA has also stated that the use of formal competitive
procedures would not have been appropriate for the purchase of
power in the past, and that WAPA's ability to use formal
competitive procedures may be constrained by their Integration
Agreement with PG&E and their access to transmission capabilities.
SAO management said that "Under certain conditions competitive
bidding procedures may be appropriate in the future, but it would
not have been appropriate for the power purchases investigated" as
part of this report. SAO management also said that competitive
processes may be easier for entities such as SMUD and NCPA because
of their arrangements with PG&E (i.e. Interconnection Agreements
vs. the Integration Agreement that SAO currently has with PG&E).
As stated in Section A of this report, SAO management believes
that their Integration Agreement with PG&E limits their
competitive options by restricting their access to power suppliers
located in the Northwest, and to those suppliers with system
capabilities. In addition, some WAPA officials have indicated
that transmission access is an impediment to competition. The SAO
Director, Power Systems Operations and Scheduling, said that
transmission access is the biggest barrier to competition in the
power industry. However, Public Law 102D486, dated October 24,
1992, and referred to as the Energy Policy Act of 1992, contains
provisions that are intended to improve transmission access within
the power industry.

Opportunities for Future Competition

WAPA officials agree that the opportunity for competition in power
purchase contracts has been enhanced by the Energy Policy Act of
1992 which addresses power transmission line right-of-way/access,
and contains provisions that could make transmission access easier
to obtain. The General Counsel for WAPA said that, as a result of
the Energy Policy Act of 1992, competition is more likely, and
that competition is more of an opportunity now than it was in the
past. The Associate Administrator, West Coast Affairs (formerly
the SAO Area Manager), said that, in theory, the Energy Policy Act
of 1992 looks good with the intent to break the transmission
monopolies, and that competition would be enhanced depending on
what happens within each region. The SAO Area Manager (formerly
the SAO Deputy Manager) said that the Energy Policy Act of 1992
gives Independent Power Producers the edge by enhancing
transmission possibilities and moves the power industry toward
more open competition.

However, even with the increased opportunity for competition
created by the Energy Policy Act, WAPA believes that other
constraints on competition may continue to exist. SAO officials
said that because most Independent Power Producers are
unit-contingent and do not have redundant capabilities, they may
not be able to meet the firm-power requirements of SAO under their
existing contract with PG&E (2948A) over the next 10 years. These
officials said that transmission capability in California and
costs associated with transmission, which is part of the
transmission constraints when considering power purchases, will be
key. These officials also said that even if transmission access
is more open, competition will still be limited if there is not
sufficient cost-effective surplus power available to meet SAO
needs.

Conclusion

We believe that WAPA needs to evaluate the opportunities for
increasing the use of formal competition in their power purchase
program based on the current trends in the utility industry and
the changes under the Energy Policy Act of 1992. We also believe
that WAPA needs to develop procedures for the use of formal
competition in solicitations for long term and short term power
purchase requirements where competitive constraints may no longer
exist. As discussed in Section A of this report, WAPA uses
informal processes for soliciting, negotiating, and awarding power
purchase contracts. We believe that WAPA's practice of not using
full and open competition, and WAPA's use of informal processes in
the screening and selection of suppliers for the award of power
purchase contracts, opens WAPA to charges of favoritism and
excessive cost in the award of power purchase contracts.




C.   APPLICABILITY OF THE COMPETITION REQUIREMENTS OF CICA AND
     THE FAR

We could not find any Federal contracting requirements, including
requirements for competition, which were recognized by WAPA or the
Department's Office of Procurement and Assistance Management as
being applicable to WAPA's power purchase program. WAPA does not
apply the competition requirements of CICA, which are implemented
in the FAR, to its power purchase contracting program. WAPA's
General Counsel told us that he believes that WAPA is exempt from
these requirements because of specific language in FAR Part 8,
REQUIRED SOURCES OF SUPPLIES AND SERVICES. An official from the
Office of Procurement and Assistance Management told us that he
believes that WAPA's power purchase program is not part of the
procurement system. However, for the reasons discussed below, we
believe that the applicability of Federal contracting
requirements, including the requirements for competition, to
WAPA's power purchase program should be reviewed by the
Department.

This section reviews the applicability of the requirements of the
FAR, the applicability of the requirements of the Competition in
Contracting Act, and the positions of WAPA, the DOE Office of
Procurement and Assistance Management, and Office of General
Counsel on the applicability of the competition requirements of
the FAR and CICA to WAPA's power purchase program.
Applicability of the Requirements of the FAR

FAR Part 1 discusses the applicability of the requirements of the
FAR, and FAR Part 2 defines the term "acquisition." FAR Part 1,
Subpart 1.103, states that the FAR "applies to all acquisitions as
defined in Part 2 of the FAR except where expressly excluded
[Emphasis Added]." FAR Part 2 defines an acquisition as:

    ". . . the acquiring by contract with appropriated funds
of supplies or services (including construction) by and
for the use of the Federal Government through purchase
or lease, whether the supplies or services are already
in existence or must be created, developed,
demonstrated, or evaluated. . . . "

The FAR states that "acquisition" includes the description of the
agency requirements, solicitation and selection of sources, award
of contracts, contract financing, contract performance, contract
administration, and those technical and management functions
directly related to the process of fulfilling agency needs by
contract.

Applicability of the Requirements of CICA

The Competition in Contracting Act of 1984 contains specific
provisions for exclusions of particular sources of supply, and
allows for procedures other than competitive procedures in
specific cases. The Competition in Contracting Act resulted in
amendments to the Federal Property and Administrative Services Act
of 1949, and the Office of Federal Procurement Policy Act of 1974.
Title VII, COMPETITION IN CONTRACTING, U.S. Code, Section 2701,
CICA of 1984, Subtitle A - Amendments to the Federal Property and
Administrative Services Act of 1949, Sec. 303.(a)(1), COMPETITION
REQUIREMENTS, states:

"Except as provided in subsections (b), (c), and (g) and
 except in the case of procurement procedures otherwise
 expressly authorized by statute, an executive agency in
 conducting a procurement for property or services D

      (A) Shall obtain full and open competition through
      the use of competitive procedures in accordance
      with the requirements of this title and the
      modifications to regulations promulgated pursuant
      to section 2752 of the Competition in Contracting
      Act of 1984; and

      (B) Shall use the competitive procedure or
      combination of competitive procedures that is best
      suited under the circumstances for the
      procurement."

The subsections cited above as exceptions to the provisions of
CICA do not apply to power purchase contracts. Subsection (b)
allows for exclusions of particular sources of supply in order to
develop or maintain an alternative source, and provides for the
restriction of a solicitation to address small business concerns.
Subsection (c) allows for procedures other than competitive
procedures (1) in cases where only one source of supply exists,
(2) in cases of unusual and compelling urgency, (3) in cases of
national emergency or industrial mobilization, and in cases where
it is necessary to maintain an essential research and development
effort, (4) in cases involving international agreement or treaty,
(5) in cases involving a statute authorizing procurement from a
specified source, and (6) in cases of national security.
Subsection (g) allows for special simplified procedures for small
purchases of property and services.

We note that the CICA provisions do not contain the wording "by
and for the use of the Federal Government" as is contained in the
FAR definition of an acquisition.

WAPA's Position on the Applicability of the FAR and CICA

WAPA does not apply the competition requirements of CICA or the
FAR to its power purchase program. WAPA claims an exemption to
these competition requirements, citing a specific exclusion found
in Subpart 8.3 of the FAR, ACQUISITION OF UTILITY SERVICES. WAPA
believes this exemption excludes their power purchase program from
all the provisions of the FAR.

FAR Part 8, REQUIRED SOURCES OF SUPPLIES AND SERVICES, Subpart
8.3, ACQUISITION OF UTILITY SERVICES, prescribes policies and
procedures for the acquisition of utility services, and states
that "GSA has statutory authority to enter into long-term
contracts for utility services for periods not to exceed a term of
10 years (40 U.S.C. 481)." Section 8.302, APPLICABILITY, contains
an exclusion pertaining to the acquisition of utility services.
This section, under subsection (b), states:

   "This subpart does not apply to - (1) Utility services
 produced, distributed or sold by a Federal agency,
 . . . ; or (2) Utility services (other than those
 required for administrative purposes) obtained by
 purchase, exchange, or otherwise by a Federal power or
 water marketing agency incident to that agency's
 marketing or distribution program."

WAPA's General Counsel, in a letter dated December 28, 1992, to
the Office of Inspections, stated that "Western complies fully
with the FAR in acquiring supplies or services, including
construction." However, the General Counsel said that FAR Subpart
8.3 provides the "express exclusion" from the applicability of the
FAR (as required by FAR 1.103, supra) to Western's power purchase
program.

WAPA's General Counsel said that the "express exclusion" is found
in FAR Subpart 8.302(b). It is WAPA's position that "The plain
language of   8.302(b)(1) excludes Western's sale of Federal power
from FAR coverage," and that "The plain language of   8.302(b)(2)
excludes Western's purchase or exchange of power from FAR
coverage, so long as the purchase or exchange is 'incident' to
Western's power marketing program." WAPA's General Counsel said
that "this exclusionary language" first appeared in a December 23,
1966, Federal Register notice. WAPA's General Counsel said that
"There is no explanation of the reasoning behind the exclusion in
the 1966 notice, nor was public comment taken on the notice."

WAPA treats the exclusion referenced in FAR Part 8 as a total
exclusion from any requirement of the FAR with regard to WAPA's
power purchase contracting program. WAPA does not follow or
implement any portion of the FAR in connection with its power
purchase program. WAPA's General Counsel said that "The
Administrator of GSA has established regulations to implement the
Competition in Contracting Act at Part 6 of the FAR. Since the
purchase power program is excluded from FAR coverage . . . it
follows that the CICA FAR requirements do not apply." The General
Counsel concluded by stating that "since 1966 [the year when the
exemption cited by WAPA first appeared in the Federal Register]
power marketing administration power sales and purchases have been
excluded from coverage under the Federal procurement regulations.
Similarly, the CICA requirements do not apply to such purchases."

However, in our view, FAR Part 8 may not provide a broad exemption
to include all of the competition and contracting requirements of
the FAR. The exclusion in FAR Part 8 clearly pertains to "This
subpart", but does not address other FAR parts such as Part 6,
COMPETITION REQUIREMENTS, and Part 15, CONTRACTING BY NEGOTIATION.
The exclusion cited by WAPA under Subpart 8.3 clearly states that
the PMAs, when purchasing utility services, are exempt from using
the "Required Sources of Supplies and Services" (i.e. GSA, the
agency with statutory authority to enter into long term contracts
for utility services), but a broader exclusion is not specifically
stated.

We noted that FAR Part 8, Section 8.304-5, AGENCY ACQUISITION,
allows other agencies to acquire utility services on their own in
cases where there is no GSA area-wide contract or other local
arrangements. However, this authority requires the contracting
agency to determine the appropriate contracting method in
accordance with the instructions of Part 6, COMPETITION
REQUIREMENTS, Part 13, SMALL PURCHASE AND OTHER SIMPLIFIED
PURCHASE PROCEDURES, and Part 15, CONTRACTING BY NEGOTIATION.
Agency contracting officers are required to determine if more than
one supplier can furnish the needed utility services, and when
such competition exists, the contracting officers are required to
solicit bids or competitive proposals for the services.

We looked at other sections of the FAR related to competition and
we did not find any specific exclusion for the purchase of power.
For example, FAR Part 6, COMPETITION REQUIREMENTS, Subpart 6.001,
APPLICABILITY, states that this part applies to all acquisitions
except contracts awarded using small purchase procedures,
contracts awarded using procedures that are expressly authorized
by statute, contract modifications, orders placed under
requirements contracts or definite quantity contracts, or orders
placed under indefinite quantity contracts. These exclusions do
not include or address WAPA or WAPA's power purchase program.

We also looked at FAR Part 15, CONTRACTING BY NEGOTIATION, which
prescribes policies and procedures governing the contracting for
supplies and services by negotiation. The Subparts of FAR Part 15
only exclude small purchases and two-step sealed bidding. These
exclusions do not specifically address the PMAs or their power
purchase programs.

Office of Procurement and Assistance Management Position on the
Applicability of the FAR and CICA

An official from the Office of Procurement and Assistance
Management told us that the understanding within his office has
always been that the power purchase programs of the PMAs are not
part of the procurement system. He said that, as such, the PMAs
do not have to follow the requirements of the FAR in conducting
these programs. He said that it had been generally felt by the
Office of Procurement and Assistance Management that the FAR does
not apply to the power purchase programs of the PMAs because the
purchase of power involves the buying and selling of a commodity.
He said that he did not believe that the buying and selling of a
commodity meets the FAR definition of an acquisition of supplies
or services by and for the use of the Federal Government. He said
that, in his mind, the key issue is that the purchase of power for
resale makes the transaction a purchase of a commodity, whereas
the purchase of power for direct use and consumption makes the
transaction a purchase of supplies or services under the FAR. He
said that the DEAR does not specifically exempt the PMAs from the
FAR and other requirements, but rather does not mention the PMAs.
In addition, he said he did not believe that this understanding
had been documented nor had the applicability of CICA to the power
purchase programs of the PMAs been addressed by DOE.

In our view, a portion of the power purchased by WAPA for resale
may meet the definition of an "acquisition" included in the FAR.
As previously stated, the FAR defines an "acquisition" as the
acquiring by contract with appropriated funds of supplies or
services by and for the use of the Federal Government through
purchase or lease. WAPA's power purchase program may come under
this definition since WAPA is a Federal entity which uses
appropriated funds to purchase power for both Federal and
non-Federal customers. WAPA's Federal customers include the
Department of Energy, National Aeronautics and Space
Administration, the United States Air Force, the United States
Navy, the United States Army, and the United States Fish and
Wildlife Service.

The Competition in Contracting Act contains specific provisions
for exclusions of particular sources of supply, and allows for
procedures other than competitive procedures in specific cases.
However, in our view, none of these provisions apply to WAPA or
WAPA's power purchase program. The official from the Office of
Procurement and Assistance Management said that, since it had
always been felt that the power purchase programs of the PMAs did
not fall under the requirements of the FAR, the issue of the
applicability of CICA to the power purchase programs of the PMAs
has not been addressed by DOE. We believe that the Department
should consider the applicability of CICA separate from the
applicability of the FAR since the applicability provisions of
CICA to procurements by executive agencies are not the same as the
applicability provisions of the FAR. Whereas the FAR applies to
"the acquiring by contract with appropriated funds of supplies or
services . . . by and for the use of the Federal Government,"
CICA applies to "an executive agency in conducting a procurement
for property or services" without reference to the Federal
Government being the user.

Office of General Counsel Memorandum on the Applicability of the
FAR and CICA

An Attorney-Advisor under the Assistant General Counsel for
Procurement and Financial Assistance expressed the opinion that
FAR 8.3 does not exclude WAPA from other provisions of the FAR.
As a follow-up to a draft of this report, the Attorney-Advisor
reviewed the issue of the applicability of the FAR and CICA to the
power purchase program of WAPA. In a memorandum dated November
22, 1994, from the Attorney-Advisor, through the Deputy Assistant
General Counsel for Procurement and Financial Assistance, to the
Director of the Office of Policy, Office of Procurement and
Assistance Management, the Attorney-Advisor wrote that "The plain
language of FAR 8.302 (b)(2) does not specifically exclude WAPA's
power purchasing program from FAR requirements." The
Attorney-Advisor also stated that "In fact, the plain language of
this provision would appear to limit not expand the scope of the
exemption set forth at FAR 8.302 (b)(2)." In addition, the
Attorney-Advisor stated that a literal reading of this provision
would seem to imply that the scope of this exemption is limited to
FAR Subpart 8.3, and that it would seem inappropriate to interpret
FAR 8.3 as an exemption from CICA or the FAR competition
requirements.

The Attorney-Advisor also found no support for the view that
WAPA's power purchases were not part of the Department's
procurement system. In the November 22, 1994, memorandum, the
Attorney-Advisor stated that no direct support could be found in a
review of General Accounting Office decisions for the view of the
then Acting Deputy Assistant Secretary for Procurement and
Assistance Management that WAPA's power purchases were not part of
the Department's procurement system because a "commodity" was
being purchased.

However, the Attorney-Advisor stated that the Federal Property and
Administrative Services Act (Property Act) may provide WAPA with
some flexibility in carrying out its power purchase program. In
the November 22, 1994, memorandum, the Attorney-Advisor referred
to the "no impairment" provisions of the Property Act. The
Attorney-Advisor cited the Property Act at 40 U.S.C.   474(2)
which states that nothing in the Act shall impair or affect any
authority of:

   "(2) any executive agency with respect to any phase . . .
of any program conducted for purposes of resale, price
support, grants to farmers, stabilization, transfer to
foreign governments, or foreign aid, relief, or
rehabilitation: Provided, That the agency carrying out
such program shall, to the maximum extent practicable,
consistent with the fulfillment of the purposes of the
program . . . , coordinate its operation with the
requirements of this Act and the policies and regulations
prescribed pursuant thereto;"

The Attorney-Advisor took the position that 40 U.S.C.   474(2) may
be relevant to WAPA's power purchase program. The
Attorney-Advisor stated that it appears that WAPA's power purchase
program "contains elements of what may be characterized as a
resale program." The Attorney-Advisor also stated that "As such,
although 40 U.S.C.   474(2) is a limited exemption to the Property
Act, it may provide WAPA . . . with some flexibility in carrying
out its power purchasing program."

The Attorney-Advisor concluded the November 22, 1994, memorandum
by suggesting that WAPA prepare a draft legal opinion as a first
step in the resolution of this issue. The Attorney-Advisor stated
that, in view of the significance and uncertainty of this issue
and its potential impact on WAPA and other affected power
marketing agencies, WAPA should thoroughly research the issues
identified in the November 22, 1994, memorandum. We understand

that WAPA's General Counsel has begun a dialogue with the Office
of General Counsel on this issue.

Delegation of Acquisition Authority to WAPA

WAPA's delegation of acquisition authority from the Office of
Procurement and Assistance Management does not exclude power
purchases from the requirements of the FAR or other applicable
laws. In a memorandum dated April 25, 1986, the Director, Office
of Procurement and Assistance Management Directorate (currently
the Office of Procurement and Assistance Management), delegated
acquisition authority to the Administrator, Western Area Power
Administration, under the Department of Energy Redelegation Order
0204-98.1. This memorandum delegated specific acquisition
authority for WAPA to:

"Approve, enter into (award/execute), administer, modify,
 close out, terminate, and take such actions as may be
 necessary and appropriate with respect to any
 contractual arrangement (including interagency and other
 funds-out agreement) committing DOE to the obligation
 and expenditure of public funds: provided, the
 execution of such actions conforms with applicable laws,
 regulations, orders, and procedures including those
 determinations and decisions as required or described in
 the Department of Energy Acquisition Regulation
 [Emphasis Added] . . . ."

Also, this delegation exempts the purchase of power from the
requirement to have the Director's prior approval, or waiver, for
acquisitions of $2,500,000 or more. In our view, it would not be
necessary to exempt the purchase of power from the requirement to
have the Director's prior approval, or waiver, if the purchase of
power by WAPA is not part of the procurement authority, and thus
the procurement system, being delegated to WAPA. With regard to
this exemption, the delegation memorandum states:
". . . any such action (other than: (1) funding
 modifications and (2) purchase of power [Emphasis Added]
 relating to power marketing functions) of $2,500,000 or
 more, including the value of all priced options or
 estimates of unpriced options and any contractor cost
 share or in-kind contributions shall have the prior
 approval, or waiver thereof, of the Director or
 designee, except that in the case of a subcontract
 consent/approval action this amount shall be $5,000,000;
 provided further, that any competitive solicitation
 intended to result in award of a contract or multiple
 contracts having a total value of $2,500,000 or more
 shall also have the prior approval, or waiver thereof,
 of the Director or designee."

This delegation also required WAPA to "Designate Competition
Advocates" for each installation that has delegated contracting
authority "to perform those duties required by the Competition in
Contracting Act of 1984, 98 Stat 1175 et. seq. (Public Law
98-369)." However, WAPA's General Counsel has taken the position
that the provisions of CICA, while applicable to the acquisition
of supplies and services such as construction, do not apply to the
power purchase program of WAPA.

Conclusion

We believe that the applicability of Federal contracting
requirements, including the requirements for competition, to
WAPA's power purchase program needs further review by the
Department. Our inspection found no Federal contracting
requirements, including requirements for competition, which have
been recognized by WAPA or the Department's Office of Procurement
and Assistance Management as being applicable to WAPA's power
purchase program. In our view, the exemption to the FAR and CICA
requirements cited by WAPA in FAR Part 8 may only apply to that
specific section of the FAR without providing a broader exemption
to include all of the competition and contracting requirements of
the FAR. In addition, we believe that a portion of the power
purchased by WAPA for resale may meet the definition of an
"acquisition" included in the FAR.

We also believe that the provisions of the Property Act at 40
U.S.C.   474(2) should be fully considered in the Department's
review of this issue. An Attorney-Advisor under the Assistant
General Counsel for Procurement and Financial Assistance stated
that, although 40 U.S.C.   474(2) is a limited exemption to the
Property Act, it may provide WAPA with some flexibility in
carrying out its power purchase program. We believe that, if it
is determined that 40 U.S.C.   474(2) is applicable to WAPA's
power purchase program, WAPA should comply with 40 U.S.C.   474(2)
by coordinating its operation with the requirements of the
Property Act, and the policies and regulations prescribed pursuant
thereto, to the maximum extent practicable.

In addition, we believe that in reviewing the applicability of
Federal contracting requirements to WAPA's power purchase program,
the Department should consider the applicability of CICA separate
from the applicability of the FAR. In our view, a determination
on the applicability of CICA to procurements by executive agencies
may not be the same as a determination on the applicability of the
FAR. As discussed in this section, CICA applies to "an executive
agency in conducting a procurement for property or services,"
where as the FAR applies to "the acquiring by contract with
appropriated funds of supplies or services . . . by and for the
use of the Federal Government." This may suggest that CICA has an
application broader than the use of appropriated funds for
supplies or services "by and for the use of the Federal
Government."


D.   DOE HEADQUARTERS' MANAGEMENT OVERSIGHT OF THE POWER PURCHASE
     PROGRAMS OF THE POWER MARKETING ADMINISTRATIONS

Our inspection found that DOE Headquarters has no program to
periodically review WAPA's power purchase program. The
Procurement Management Reviews of the Office of Procurement and
Assistance Management have not addressed the power purchase
contracting programs of the PMAs because the purchase of power has
not been viewed as a procurement under the FAR. In addition, the
former Office of Assistant Secretary for Conservation and
Renewable Energy, which had responsibility for the management
oversight of the PMAs, did not conduct any reviews of WAPA's power
purchase contracting program. Oversight management of the PMAs
was transferred to the Office of the Deputy Secretary on June 10,
1993.

This section reviews the DOE Headquarters' management oversight of
the power purchase programs of the PMAs.

DOE Headquarters' Oversight Responsibilities

       Oversight Responsibilities of the Office of Procurement and
       Assistance Management

Procurement oversight in DOE is the responsibility of the Office
of Procurement and Assistance Management. The then Acting Deputy
Assistant Secretary for Procurement and Assistance Management said
that the power purchase programs of the PMAs, in his opinion, are
not part of the DOE procurement system. As such, he said that
power purchase contracts are not included in the Procurement
Management Reviews performed by the Office of Procurement and
Assistance Management. He said that he was not aware of who, if
anyone, within DOE provided oversight of power purchase contracts.
He said that he did not know who was setting the rules under which
power purchase contracts could be awarded. He said that his
office was not setting such rules, and that the only other
possibility was that (before June 1993 when management oversight
of the PMAs was transferred to the Office of the Deputy Secretary)
the then Office of Conservation and Renewable Energy provided some
type of guidance or oversight to the power purchase programs of
the PMAs.

       Delegated Oversight Responsibilities
Since the creation of DOE, the oversight responsibility of the
PMAs has been defined in Delegation Orders, a Secretary of Energy
Notice (SEN), a DOE memorandum, and a DOE Notice. The Delegation
Orders have dealt primarily with the authority to develop,
approve, and place in effect power and transmission rates. DOE
memoranda and the SEN have dealt primarily with administrative
oversight of the PMAs.

By Delegation Order 0204-33, December 1978, the Secretary of
Energy delegated the Assistant Secretary for Resource Applications
(RA), authority to develop, acting by and through the
administrators, power and transmission rates for the PMAs, and the
authority to confirm, approve, and place in effect these rates.
This order also delegated and assigned to FERC the authority to
confirm and approve on a final basis, or to disapprove, rates
developed by RA.

On February 25, 1981, the Power Marketing Administrations were
transferred from the Assistant Secretary for Resource Applications
to the Assistant Secretary for Conservation and Renewable Energy.
On March 19, 1981, the interim ratemaking authority was also
redelegated to the Assistant Secretary for Conservation and
Renewable Energy from the Assistant Secretary for Resource
Applications by an amendment to Delegation Order 0204-33.

Delegation Order 0204-33 was superseded by Delegation Order
0204-108 effective December 1983, and delegated to the Deputy
Secretary of DOE the authority to confirm, approve, and place in
effect on an interim basis, power and transmission rates for
Alaska, Southeastern, Southwestern, and Western Area Power
Administrations. Effective May 30, 1986, Delegation Order
0204D108, was amended and delegated to the Under Secretary of DOE
all authority which was previously delegated to the Deputy
Secretary of the DOE.

From 1986 to 1991, for administrative oversight purposes, DOE's
five PMAs were reporting to different senior DOE officials. BPA
and WAPA reported directly to the Deputy Secretary, and the
Southwestern Power Administration (SWPA), the Southeastern Power
Administration (SEPA), and the Alaska Power Administration (APA)
reported to the Assistant Secretary, Conservation and Renewable
Energy. As stated in an attachment to a memorandum from the
Office of Conservation and Renewable Energy to the Secretary dated
March 20, 1991, and titled "Proposed Reporting Relationships for
Bonneville and Western Area Power Administrations," the Deputy
Secretary (in the summer of 1990) concluded it was no longer
desirable to have BPA and WAPA report directly to him. The Deputy
Secretary reached this decision because his office was unable to
devote sufficient resources to managing these two PMAs.

The Deputy Secretary believed that since SWPA, SEPA and APA
reported to the Assistant Secretary, Conservation and Renewable
Energy (currently Energy Efficiency and Renewable Energy),
consolidation of all PMAs under the Office of Conservation and
Renewable Energy would provide more effective oversight of the
PMAs. On April 4, 1991, the realignment of BPA and WAPA to report
to the Assistant Secretary, Conservation and Renewable Energy, was
approved. SEN-6D-91, dated May 16, 1991, stated that "The
Assistant Secretary for Conservation and Renewable Energy (CE-1)
is responsible for management oversight of the Bonneville Power
Administration (BPA) and the Western Area Power Administration
(WAPA)." Under this realignment, the Deputy Secretary was to
continue to provide management guidance in resolving significant
or politically sensitive PMA issues, but withdrew from day-to-day
oversight of BPA and WAPA. This realignment assigned new
functions to the Office of Conservation and Renewable Energy, such
as:

"Review of Major PMA Issues D D The PMA Administrators
 and the AS/CE will confer to resolve major PMA-specific
 or crosscutting PMA issues. On particularly sensitive
 or contentious issues, the AS/CE, in conjunction with
 the Administrators, will consult with the Deputy
 Secretary to determine the appropriate course of
 action."

However, our inspection found that the Office of Conservation and
Renewable Energy did not provide any type of guidance or oversight
of the PMA power purchase programs. The former Office of
Conservation and Renewable Energy Staff Coordinator for the PMAs
said that the Assistant Secretary did not get involved in the
day-to-day operations of WAPA. He said that the primary
relationship between the Office of Conservation and Renewable
Energy and WAPA involved interim approval of utility rates and the
WAPA Administrator's annual performance appraisal. He also said
that WAPA interfaced with this office in the area of full time
equivalencies, environmental issues, and audits, but that the
Office of Conservation and Renewable Energy did not make policy
for or tell WAPA what to do or how to do it. He said that, to his
knowledge, the Office of Conservation and Renewable Energy had not
performed any reviews of WAPA's power purchase program.

As a result of DOE Notice 1100.32A, dated June 10, 1993, the
management oversight of the PMAs was again redelegated. This
notice, under the section titled "Reporting to the Deputy
Secretary - Energy Programs," states that "The Alaska, Bonneville,
Southeastern, Southwestern, and Western Area Power Administrations
will report to the Office of the Deputy Secretary which will
provide management oversight."

On June 16, 1994, the Deputy Secretary testified before the
Subcommittee on Oversight and Investigations, Committee on Natural
Resources, U.S. House of Representatives, regarding the
development of new power marketing policies by WAPA. In this
testimony, the Deputy Secretary discussed WAPA's Energy Planning
and Management Program which sought to promote long-term energy
planning and efficient energy use. In the area of power
purchases, the Deputy Secretary stated that resources needed to
firm up WAPA's hydroelectric commitments will be considered in
accordance with existing laws and Integrated Resource Planning
(IRP) principles in the future. The Deputy Secretary further
stated that Requests for Proposals will be issued to meet
long-term resource needs, with solicitations including
conventional supply-side resources as well as competition on an
equal basis for cost-effective renewable, energy efficient, and
demand-side resources.

Conclusion

DOE Headquarters has no program to periodically review WAPA's
power purchase program. The procurement management reviews of the
Office of Procurement and Assistance Management do not address the
power purchase contracting programs of the PMAs. In addition, the
management oversight responsibility vested in the Assistant
Secretary for Energy Efficiency and Renewable Energy, formerly the
Assistant Secretary for Conservation and Renewable Energy, did not
result in any specific program reviews of WAPA's power purchase
contracts. We believe that DOE needs to establish a program to
periodically review the power purchase programs of the PMAs to
assure that PMA internal policies and procedures provide adequate
control and accountability over the solicitation, negotiation,
award, and documentation of power purchase contracts.




VI.   RECOMMENDATIONS

We recommend that the Deputy Assistant Secretary for the Office of
Procurement and Assistance Management, in coordination with the
Office of General Counsel and the Administrator of WAPA:

1. Develop a formal determination as to the applicability of the
   requirements of the FAR, DEAR, and CICA to WAPA's power
   purchase program.

We recommend that the Deputy Assistant Secretary for the Office of
Procurement and Assistance Management:

2. Identify and recommend to the Deputy Secretary an appropriate
   DOE organization responsible for establishing a program to
   periodically review the power purchase programs of the PMAs to
   assure that PMA internal policies and procedures provide
   adequate control and accountability over the solicitation,
   negotiation, award, and documentation of power purchase
   contracts.

We recommend that the Administrator, Western Area Power
Administration:

3. Coordinate with the Office of Procurement and Assistance
   Management, and the Office of General Counsel, to develop a
   formal determination as to the applicability of the
   requirements of the FAR, DEAR, and CICA to WAPA's power
   purchase program.

4. Develop and implement policies and procedures for the
   solicitation, negotiation, award, and documentation of power
   purchase contracts. These procedures should include the
   processes actually used by WAPA when entering into a purchase
   agreement, such as (i) conducting market searches, (ii)
   notifying potential suppliers of WAPA's requirements, (iii)
   screening potential suppliers, (iv) evaluating offers, (v)
   selecting a supplier, (vi) negotiating with that supplier,
   (vii) awarding a power purchase contract, and (viii)
   documenting the solicitation and award processes.

5. If it is determined by the Office of Procurement and Assistance
   Management, and the Office of General Counsel, that the
   requirements of the FAR, DEAR, and CICA apply to WAPA's power
   purchase program, assure that all policies, procedures, and
   directives are updated to incorporate these requirements.

6. Evaluate the opportunities for increasing the use of formal
   competition in WAPA's power purchase program based on the
   current trends in the utility industry and the changes under
   the Energy Policy Act of 1992, and develop procedures for the
   use of formal competition in solicitations for short and long
   term power purchase requirements as appropriate.

7. Develop policies and procedures that require documentation to
   support the analysis of rates and the determination of rate
   reasonableness prior to the award of all short and long term
   power purchase contracts.

8. Determine the appropriate level of review for rates under
   short and long term power purchase contracts to assure that all
   relevant rate information is considered and evaluated by the
   appropriate power marketing staff prior to the award of all
   short and long term power purchase contracts.

9. Provide training to all power marketing personnel involved in
   the award of short and long term power purchase contracts which
   focuses on policies and procedures developed for (i) conducting
   market searches, (ii) notifying potential suppliers of WAPA's
   requirements, (iii) screening potential suppliers, (iv)
   evaluating offers, (v) selecting a supplier, (vi) negotiating
   with that supplier, (vii) awarding a power purchase contract,
   and (viii) documenting the solicitation and award processes.


VII.   MANAGEMENT COMMENTS

In commenting on an earlier draft, the Director of Procurement,
Assistance and Property, Office of Procurement and Assistance
Management, concurred with recommendation 1 and said that his
office, in conjunction with WAPA and the Office of General
Counsel, will develop a formal position as to the applicability of
the requirements of the FAR, DEAR, and CICA to WAPA's power
purchase program. The Director also concurred with recommendation
2 and stated that the Office of Procurement and Assistance
Management will identify and recommend to the Deputy Secretary an
appropriate DOE organization responsible for establishing a
program to periodically review the power purchase programs of the
PMAs.
In comments dated September 22, 1994, the Administrator of WAPA
said that WAPA made the decision earlier in the year to use
integrated resource planning principles in purchasing power. The
Administrator said that, as announced in an August 9, 1994,
Federal Register Notice for WAPA's Energy Planning and Management
Program, WAPA has made the commitment to issue requests for
proposals to meet long term resource needs in the future.

In his September 22, 1994, comments, the Administrator concurred
with recommendation numbers one, three, four, six, seven, eight,
and nine. The Administrator did not provide a response to
recommendation number five, stating that no response was required.

With regard to recommendation numbers one and three, the
Administrator provided additional comments, stating that the
development of a formal determination as to the applicability of
the requirements of the FAR, DEAR, and CICA to WAPA's power
purchase program is underway.

With regard to recommendation number four, the Administrator
provided additional comments, stating that WAPA is developing
"reasonable documentation policies."

The Administrator did not provide any additional comments with
regard to recommendations six, seven, eight, or nine.
